No. 19-294
IN THE SUPREME COURT OF THE UNITED STATES
_________________
USAMA JAMIL HAMAMA, ET AL., PETITIONERS
v.
REBECCA ADDUCCI, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS IN OPPOSITION, via email and first-class mail,
postage prepaid, this 4th day of December, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 4,732
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
December 4, 2019.

December 4, 2019

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0294
HAMAMA, USAMA JAMIL, ET AL.
REBECCA ADDUCCI, ET AL.
MIRIAM J. AUKERMAN
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION OF MICHIGAN
1514 WEALTHY STREET SE
GRAND RAPIDS, MI 49506
ANAND BALAKRISHNAN
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 BROAD STREET
18TH FLOOR
NEW YORK, NY 10004
DAVID D. COLE
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15TH STREET NW
WASHINGTON, DC 20005
DAVID JOHNSON
573 HAWKSNEST DRIVE
SOUTH HAVEN, MI 49090
MARCO SCHLANGER
625 SOUTH STATE STREET
ANN ARBOR, MI 48109
734-615-2618
MARGO.SCHLANGER@GMAIL.COM
KIMBERLY L. SCOTT
MILLER, CANFIELD, PADDOCK & STONE, PLC
101 N. MAIN STREET
7TH FLOOR
ANN ARBOR, MI 48104

VIA EMAIL

